BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 19-123
SHARONELL FULTON, ET AL. ,

Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h) , I
certify that the Brief Amicus Curiae of Professor
Eugene Volokh in Support of Neither Party contains
7,995 words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on June 2, 2020.

DonnaJ.Wo l i ~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

J()HN D 1ALLAG HER
1iota 1y Puhlic. late of Ohio
My Commission E.xp1res
February 14, 2023

